Nos. 20-37, 20-38
IN THE

Supreme Court of the United States
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND
HUMAN SERVICES, ET AL.,
Petitioners,
v.
CHARLES GRESHAM, ET AL.,
Respondents.
________
STATE OF ARKANSAS,
Petitioner,
v.
CHARLES GRESHAM, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Ian Heath Gershengorn, hereby certify that I am a member of the Bar of this
Court, and that I have this 18th day of February 2021, caused three copies of the Brief
for Respondents to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
Nicholas Jacob Bronni
Solicitor General of Arkansas
Arkansas Attorney General's Office
323 Center St., Suite 200
Little Rock, AR 72201-2605
(501) 682-6302
nicholas.bronni@arkansasag.gov

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for State of Arkansas

Counsel for Norris Cochran, Acting
Secretary of Health and Human Services,
et al.

Laura E. B. Lombardi
New Hampshire Department of Justice
33 Capitol Street
Concord, NH 03301-6397
(603) 271-3650
laura.lombardi@doj.nh.gov
Counsel for New Hampshire Department
of Health and Human Services

/s/ Ian Heath Gershengorn
Ian Heath Gershengorn

